No. 20-611
In the

Supreme Court of the United States
__________________
ROBERT J. DOYLE,
v.

Petitioner,

JACQUELINE M. VIGILANTE,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________

BRIEF IN OPPOSITION
__________________
PATRICIA A. FECILE-MORELAND
Counsel of Record
MARKS O’NEILL O’BRIEN
DOHERTY AND KELLY
1617 John F. Kennedy Blvd.
One Penn Center, Suite 1010
Philadelphia, PA 19103
(215) 564-6688
pmoreland@moodklaw.com
Counsel for Respondent
December 4, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
RESPONDENT’S BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI. . . . . . 1
SUMMARY OF REASONS WHY THE PETITION
SHOULD BE DENIED. . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
COUNTERSTATEMENT OF THE CASE . . . . . . . . 3
REASONS FOR DENYING CERTIORARI . . . . . . . 9
A. Petitioner’s Claims were Addressed by the
Third Circuit . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. Petitioner’s Conflict of Interest Malpractice
Claim is Waived. . . . . . . . . . . . . . . . . . . . . . . 15
C. Petitioner’s Constitutional Rights Were Not
Violated By The Third Circuit’s Ruling . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

ii
TABLE OF AUTHORITIES
CASES
Belitskus v. Pizzingrilli,
343 F.3d 632 (3d Cir. 2003) . . . . . . . . . . . . . . . . 15
Blackledge v. Perry,
417 U.S. 21 (1974). . . . . . . . . . . . . . . . . . . . . . . . 19
Coleman v. Duane Morris, LLP,
58 A.3d 833, 2012 Pa. Super. LEXIS 4100 . . . . 14
Couden v. Duffy,
446 F.3d 483 (3d Cir. 2006) . . . . . . . . . . . . . 17, 18
DIRECTV, Inc. v. Seijas,
508 F.3d 123 (3d Cir. 2007) . . . . . . . . . . . . . . . . 15
Dougherty v. Pepper Hamilton LLP,
133 A.3d 792 (Pa. Super. 2016) . . . . . . . . . . . . . 13
Franklin v. Gwinett County,
503 U.S. 60 (1992). . . . . . . . . . . . . . . . . . . . . . . . 19
Gen. Refractories Co. v. First State Ins. Co.,
855 F.3d 152 (3d Cir. 2017) . . . . . . . . . . . . . . . . 16
Harrington v. Richter,
562 U.S. 86 (2011). . . . . . . . . . . . . . . . . . . . . 19, 20
Kituskie v. Corbman,
552 Pa. 275, 714 A.2d 1027 (Pa. 1998). . . . . . . . 13
Layne & Bowler Corp. v. Western Well Works, Inc.,
261 U.S. 387, 43 S. Ct. 422, 67 L. Ed. 712,
1923 U.S. LEXIS 2571 (1923). . . . . . . . . . . . . . . . 1

iii
North Carolina v. Pearce,
395 U.S. 711 (1969). . . . . . . . . . . . . . . . . . . . . . . 19
Otis Elevator Co. v. George Washington Hotel Corp.,
27 F.3d 903 (3d Cir.1994) . . . . . . . . . . . . . . . . . . 18
Shell Petroleum, Inc. v. United States,
182 F.3d 212 (3d Cir. 1999) . . . . . . . . . . . 8, 15, 16
Spireas v. Comm’r of Internal Revenue,
886 F.3d 315 (3d Cir. 2018) . . . . . . . . . . . . . . . . 16
United States v. Joseph,
730 F.3d 336 (3d Cir. 2013) . . . . . . . . . . . . . . . . 16
RULES
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 9, 10

1
RESPONDENT’S BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
SUMMARY OF REASONS WHY THE PETITION
SHOULD BE DENIED
The Petitioner does not assert any of the reasons
enumerated by Sup. Ct. R. 10 as required for cert. Nor
does the Petitioner assert any other compelling reasons
why this Court should review the Third Circuit’s nonprecedential decision which was based on Pennsylvania
common law and statutes of limitation. Contrary to
Petitioner’s assertion, the Third Court did address
Petitioner’s claim alleging that Respondent had
committed legal malpractice by covering up her alleged
negligence and continuing to charge him legal fees.
(Characterized by Petition before the Third Circuit as
a “conflict of interest” claim.) The issues which the
Petitioner asks this Court to review do not “involv[e]
principles the settlement of which is of importance to
the public as distinguished from that of the parties.”
Layne & Bowler Corp. v. Western Well Works, Inc., 261
U.S. 387, 393, 43 S. Ct. 422, 423, 67 L. Ed. 712, 714,
1923 U.S. LEXIS 2571, *9 (1923). In addition to the
fact that this Petition does not involve an issue of
importance to anyone other than Petitioner, it is
extremely doubtful that the issue in question was
preserved for appellate review by raising it before the
District Court.
INTRODUCTION
The central premise of the Petition is its assertion
that when Petitioner “appealed to the Third Circuit
squarely and unambiguously asking that the case

2
be remanded to address the unaddressed conflict
of interest claim, the Third Circuit inexplicably failed
to address his complained-of error.” Petition, page 2.
(Emphasis in original). This assertion is simply wrong.
The Third Circuit did address that claim, but its
disposition was not to Petitioner’s satisfaction. That
Court stated: “With the benefit of counsel, Doyle argues
on appeal that the District Court erred because its
opinion addressed only one of two malpractice claims
that he had raised. He maintains that the District
Court failed to address his allegation that Vigilante
committed malpractice by covering up for her alleged
error and continuing to litigate the case and charge
him legal fees. He further maintains that this claim is
not barred by the statute of limitations. We disagree
and will affirm because Doyle cannot show that he
suffered damages.” Doyle v. Vigilante, 803 Fed. Appx.
628, 629-630, 2020 U.S. App. LEXIS 14415, *4 (2020).
Not only has Petitioner ignored the Third Circuit’s
ruling, but he has also taken a legal malpractice claim,
premised solely on the application of state law and
statutes of limitations and contorted his arguments in
an attempt to implicate his access to the courts and
thus allege an abridgment of his Constitutional right to
due process. The record below demonstrates that
Petitioner had full and fair access to the courts and
that all his claims were heard. Respondent’s Motion for
Summary Judgment seeking dismissal of all claims
was granted by the District Court. On appeal, for the
first time, Petitioner raises the theory of “conflict of
interest,” separate and apart from the malpractice
claim. As Respondent argued in her brief on appeal,
and as noted by the Third Circuit, Petitioner waived

3
his alleged conflict of interest claim because he did not
raise it before the District Court. However, even if it
was not waived, the claim was not viable because
Petitioner was not able to demonstrate that he could
have recovered damages against the union, UAW Local
1069 for the underlying case. Accordingly, there are no
due process or other matters rising to the level of
national importance that would give this Court reason
to grant certiorari.
COUNTER STATEMENT OF THE CASE
Petitioner’s pro se Complaint alleged that
Respondent’s legal representation of him was negligent
for the following:
(a) By failing to explain to the Plaintiff that she
missed 2 statue’s [sic] of limitations; (b) By
representing to the plaintiff that even after she
missed both statue’s [sic] one at 9 months after
she was retained and the second at 11 months
after she was retained that the case can be won
with the same results as if she did not miss both
statues [sic], (c) By holding herself out as the
attorney for Petitioner but not representing his
best interest. She missed the fact that because of
this all the Petitioner’s evidence was time barred
yet she was never forth coming [sic] and let the
him suffer major economic losses by not
explaining the damage, to the case that her
negligence caused to the case; (d) By taking
large sums of money under the guise of ‘nonrefundable’ retainers without any accounting
therefor, (e) By failing to provide him with the
minimum standard of care, (f) By being

4
dishonest she breached her duty towards
Petitioner by her being negligent, made
mistake’s [sic] which she tried to conceal and to
blame other factors and people, that plaintiff
will show she was deceptive.” ECF Document 1
(Notice of Removal, with Plaintiff’s Complaint
attached).
Petitioner also alleged that: “In addition to the
negligence/malpractice committed by the defendant . . .
Defendant fraudulently induced the plaintiff to pay
him large sums of money by making representations
regarding the legal matter which were untrue.” Id. The
latter allegation, which is both vague and untrue, is the
apparent basis for what Petitioner’s counsel
characterizes as a conflict of interest claim.
Although Respondent believes that review of the
Third Circuit’s opinion is sufficient to show that the
Petition is without merit, a discussion of the history of
the matter in which Respondent represented
Petitioner, as well as of his lawsuit against
Respondent, follows for the Court’s information.
Petitioner was fired by Boeing Company 2009 for
harassing fellow employees. He was previously fired in
2006 for workplace harassment, but was rehired
without back pay after his union filed a grievance. The
reinstatement came with a warning that future
harassment would result in termination. Over a year
later, Petitioner hired Respondent to pursue claims
against his union or Boeing as a result of his
termination. At the time Respondent was retained, she
advised Petitioner that some of his claims might be
time-barred. By letter dated September 14, 2011,

5
Respondent advised Petitioner that: (1) his only viable
cause of action was against UAW Local 1069 for failing
to adequately represent him; (2) and the complaint
against the union must be filed by October 11, 2011.
App. 2.
Respondent filed a Complaint against UAW Local
1069 in the United States District Court for the
Eastern District of Pennsylvania on September 30,
2011, alleging violations of the Labor Management
Relations Act (“LMRA”) and the Labor Management
Reporting and Disclosure Act (“LMRDA”) with regard
to UAW Local 1069’s representation of Petitioner in the
termination process. The suit was premised on the
Union’s allegedly inadequate representation of
Petitioner during the termination process. The case
was stayed to allow Petitioner to exhaust his
administrative appeals. App. 2.
During the administrative appeal, contrary to
Respondent’s instruction, Petitioner wrote ten ex-parte
letters to District Judge Diamond purporting to detail
his progress in exhausting his union appeal process,
including a letter dated June 2, 2014 in which he
recounted his efforts to investigate Respondent’s
handling of the case. During the stay, the relationship
between Respondent and Petitioner deteriorated, as
Petitioner continued to communicate directly with the
Court, against the advice and admonition of
Respondent. App. 3.
Before writing to Judge Diamond, Petitioner
consulted other attorneys about Respondent’s alleged
malpractice. Petitioner admitted during his deposition
in the matter below that after meeting with one of

6
these attorneys, he understood that Respondent had
filed his lawsuit too late. App. 2. In a letter to
Petitioner dated May 6, 2014 and captioned “RE:
Doyle v. the Vigilante Law Firm,” Sidney Gold, an
attorney with whom Petitioner consulted, declined to
represent him, but informed him that “[he] had advised
[Petitioner] that [Petitioner] has only two (2) years
from any act of malpractice to file a claim in the Court
of Common Pleas in Pennsylvania.” Petitioner
continued to solicit advice from Mr. Gold about whether
he should pursue Respondent’s malpractice insurance.
Mr. Gold also advised Petitioner to contact a legal
malpractice attorney. In response, Petitioner claims he
contacted Mr. Cohn, such an attorney, who advised him
that a malpractice case could not be brought while the
underlying case was pending. After speaking with Mr.
Cohn, on June 2, 2014 Petitioner wrote to Judge
Diamond’s law clerk stating that he had consulted with
several attorneys who told him “to file a malpractice
action against the Vigilante Law Firm for filing over
the statute of limitations.” Petitioner further stated
that he “was told…to not waste time and file a
malpractice action [because] the clock was ticking.”
Petitioner also advised Respondent of what he learned
from Mr. Gold and she responded that he could retain
a different attorney or choose to represent himself.
App. 10.
After the stay was lifted, the union renewed its
motion to dismiss. Respondent sent Petitioner an email explaining the relevant statutes of limitations and
advising that the “judge has told me clearly that
he…will probably dismiss the LMRA claim.” App. 10.
In the same e-mail, Respondent recommended that an

7
amended Complaint be filed which contained only the
LMRDA claim. Respondent further explained why she
filed the particular claims and the relevant statutes of
limitations for each of the claims. On December 15,
2015, Respondent filed a Second Amended Complaint
on Petitioner’s behalf which alleged that UAW Local
1069 had engaged in a pattern of harassment, false
accusations, discipline and conspiracy against him in
retaliation for his participation in a 2008 UAW Local
1069.
Meanwhile, the attorney-client relationship
deteriorated further between Petitioner and
Respondent. The District Court granted Respondent’s
motion to withdraw her appearance on September 12,
2016.
Petitioner proceeded pro se and on March 30, 2018,
the District Court granted the union’s motion for
summary judgment. Doyle v. United Auto. Aerospace &
Agrc. Implement Workers of Am. Local 1069, No. 116185 slip op. 10-16 (E.D. Pa. March 30, 2018). The
District Court ruled that no retaliation had occurred.
The Third Circuit affirmed the District Court’s
dismissal. Doyle v. United Auto. Aerospace & Agrc.
Implement Workers of Am. Local 1069, 761 F. App’x
136, 2019 U.S. LEXIS 3115 (3d Cir. 2019).
More than four years after Petitioner was told that
the clock was ticking on any malpractice claim against
Respondent, he filed the Complaint in this action on
August 31, 2018. App. 11. Following discovery, the
District Court granted summary judgment for
Respondent on the basis that the statute of limitations
barred Petitioner’s claims.

8
On appeal, with the benefit of legal counsel,
Petitioner argued that there were two malpractice
claims, one premised on Respondent’s alleged failure to
file the underlying case timely, the other premised on
a conflict of interest because Respondent continued to
represent Petitioner, knowing that she failed to timely
file his case against the union. Petitioner’s conflict of
interest argument appears to be based upon
Respondent’s alleged intentional effort to cover up her
mistake. Petitioner argued on appeal that the District
Court failed to address this second claim for legal
malpractice. App. 4. Respondent argued, inter alia,
that the alleged conflict of interest claim was waived on
appeal because it was not raised before the District
Court.
Contrary to Petitioner’s assertions, the Third
Circuit Court of Appeals considered and ruled upon all
of Petitioner’s claims. The Third Circuit specifically
noted Petitioner’s theory regarding the alleged conflict
of interest and stated in footnote 4 of its Opinion: “[t]o
preserve an issue for appeal, a party ‘must
unequivocally put its point before the trial court at a
point and in a matter that permits the court to consider
its merits.’ Shell Petroleum, Inc. v. United States, 182
F.3d 212, 218 (3d Cir. 1999). Although we are skeptical
that Doyle ever raised this claim before the District
Court, we will address the argument because it is
ultimately unpersuasive on the merits.” App. 4, fn 4.
The Court of Appeals noted that Petitioner claimed
that his conflict of interest theory of legal malpractice
was not barred by the statute of limitations. The Court
then stated: “We disagree and will affirm because

9
Doyle cannot show that he suffered damages.” In
affirming the District Court, the Third Circuit Court of
Appeals held that Doyle cannot prove damages because
he did not have a viable case against his union.
Referencing the District Court’s ruling in Doyle v.
United Auto. Aerospace & Agrc. Implement Workers of
Am. Local 1069, No. 11-6185 slip op. 10-16 (E.D. Pa.
March 30, 2018), wherein the LMRDA claims were
decided on the merits and it was determined no
retaliation occurred, the Third Circuit observed that in
its opinion affirming Petitioner’s appeal of the
dismissal of his claim against his union: “We agreed
that ‘Doyle ha[d] not presented any evidence to show
that [the union’s] decision not to arbitrate was
improper or motivated by retaliation for Doyle’s
campaigning efforts, or gives rise to an inference of
such retaliation.” Doyle v. United Auto. Aerospace &
Agrc. Implement Workers of Am. Local 1069, 761
F. App’x 136 (3d Cir. 2019).
REASONS FOR DENYING CERTIORARI
The decision to grant a petition for writ of certiorari
is a matter of discretion for the Court; however,
guidelines regarding the exercise of that discretion are
available. Rule 10 of the Supreme Court Rules outlines
those considerations:
Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a
writ of certiorari will be granted only for
compelling reasons. The following, although
neither controlling nor fully measuring the
Court’s discretion, indicate the character of the
reasons the Court considers:

10
(a) a United States court of appeals has
entered a decision in conflict with the
decision of another United States court of
appeals on the same important matter; has
decided an important federal question in a
way that conflicts with a decision by a state
court of last resort; or has so far departed
from the accepted and usual course of
judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an
exercise of this Court’s supervisory power;
(b) a state court of last resort has decided an
important federal question in a way that
conflicts with the decision of another state
court of last resort or of a United States court
of appeals;
(c) a state court or a United States court of
appeals has decided an important question of
federal law that has not been, but should be,
settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this
Court.
The questions raised by the Petition in this matter
do not fall within any of Rule 10’s illustrative examples
of situations or questions which may cause the Court to
exercise its discretion to grant Certiorari. The instant
matter does not involve any decision in conflict with
any other United State Court of Appeals or other Court
of last resort. This matter does not involve any decision
that so far departs from the accepted and usual course
of judicial proceedings so as to warrant this Court to

11
exercise its supervisory power. Nor does this matter
involve any question of federal law that has not been
but should be settled by the Court. The Petition cobbles
together spurious alleged Constitutional issues
regarding access to courts and due process as vehicle to
obtain review of issues uniquely of state law, namely
legal malpractice and the application of the applicable
statute of limitations.
A. Petitioner’s Claims were Addressed by the
Third Circuit
As reflected in the Counterstatement of the Case,
supra, Petitioner’s assertion that the Third Circuit
failed to address and resolve every issue raised by
Petitioner and thereby denied Petitioner his due
process right of access to the courts is simply wrong.
While succinct, the Third Circuit ruled that there was
no viable claim for malpractice on either a theory of the
missed statute of limitations or the alleged conflict of
interest because Petitioner could not prove that he had
sustained any damages because he did not have a
viable claim against his union in the underlying case.
This ruling was based on the District Court’s ruling in
Doyle v. United Auto. Aerospace & Agrc. Implement
Workers of Am. Local 1069, No. 11-6185 slip op. 10-16
(E.D. Pa. March 30, 2018), wherein the LMRDA claims

12
were dismissed on the merits because Petitioner could
not produce any proof that retaliation occurred.1
1

Petitioner wrongly asserts in footnote 3 of his Petition that his
lawsuit against his union was dismissed “almost entirely on
statute of limitations grounds.” To the contrary, the Third Circuit’s
opinion affirming the dismissal of that lawsuit states:
The Union argues that Doyle has not presented any
evidence to show that its decision not to arbitrate was
improper or motivated by retaliation for Doyle’s
campaigning efforts, or gives rise to an inference of such
retaliation. We agree. The evidence in the record shows
that the Union considered Doyle’s case and made a
decision not to arbitrate based on its determination that
arbitration would be unsuccessful. See ECF 93-1, at 2-3
(committee meeting notes). Nor has Doyle shown an
unusually suggestive temporal proximity to establish a
causal connection between his campaigning and the
Union’s decision not to arbitrate. See Thomas v. Town of
Hammonton, 351 F.3d 108, 114 (3d Cir. 2003). As to
Doyle’s claim that the Union retaliated against him due to
the International Union’s failure to return his calls for
assistance, the District Court correctly concluded that
there is no evidence of retaliation by the Union with
respect to this allegation. Not only is International Union
not a party to this action, but Doyle has not alleged or
presented any evidence that the International Union and
Local 1069 conspired against him.
Similarly, there is no evidence in the record showing a
pattern of “actual antagonistic conduct” between the
Union’s 2008 campaign and Doyle’s 2009 termination. See
Marra v. Phila. Hous. Auth., 497 F.3d 286, 302 (3d Cir.
2007) (stating that, regarding a claim for unlawful
retaliation under the Pennsylvania Human Relations Act,
“[w]here the time between the protected activity and
adverse action is not so close as to be unusually suggestive
of a causal connection standing alone, courts may look to
the intervening period for demonstrative proof, such as

13
The Third Circuit’s ruling, which rejected
Petitioner’s conflict of interest claim, correctly relied on
the Pennsylvania Supreme Court’s decision in Kituskie
v. Corbman, 552 Pa. 275, 714 A.2d 1027 (Pa. 1998), and
the Pennsylvania Superior Court’s decision in
Dougherty v. Pepper Hamilton LLP, 133 A.3d 792 (Pa.
Super. 2016). To establish a legal malpractice claim,
the plaintiff must satisfy the following three-prong test:
1) [E]mployment of the attorney or other basis
for a duty;
2) the failure of the attorney to exercise ordinary
skill and knowledge; and
3) that such negligence was the proximate cause
of damage to the plaintiff.
Kituski, supra, at 1029 (citation omitted). Moreover,
the plaintiff’s damage must be an “actual loss rather
than... nominal damages, speculative harm or the
threat of future harm.” Id. at 1030.
In the instant matter, both the District Court and
the Third Circuit held that Petitioner’s inability to
actual antagonistic conduct or animus”). For example,
Doyle complains of two incidents wherein Union
committeeman Kozlowski filed either a complaint or
charges against Doyle, which were later either withdrawn
by Kozlowski or dismissed by the Union. These incidents
do not amount to a pattern of antagonistic conduct.
Additionally, Doyle has failed to put forth any evidence to
support his allegations of “months of repeated
harassment,” Appellant’s Brief, at 4, or that the Union
played a role in his job re-assignment.” Id.761 Fed. Appx.
136, 139-140. (3d. Cir. 2019). U.S. App. LEXIS 3115.

14
prove up his case against the union, including proof he
suffered actual damages, means he cannot prevail on a
claim for malpractice against the attorney
(Respondent) who prosecuted the case against the
union. While Petitioner attempts to distinguish the
malpractice claim based upon a conflict of interest by
saying it stands alone from the other alleged
malpractice, he fails to cite to a single authority which
supports this argument. Petitioner’s reliance upon
Coleman v. Duane Morris, LLP, 58 A.3d 833, 2012 Pa.
Super. LEXIS 4100 is misplaced. Coleman does not
stand for the proposition that a litigant in a legal
malpractice case does not have to prove the casewithin-the case to prevail on the claim. Rather, at issue
was long-standing precedent regarding a limitation on
the damages recoverable in a legal malpractice action.
Specifically, the court addressed the distinction
between recoverable damages in an action alleging
negligence as opposed to the recoverable damages in
an action premised on a breach of contract, where the
underlying matter involved civil law rather than
criminal law. The Coleman court held:
Accordingly, we conclude that the limitation on
damages imposed by the Bailey Court applies to
an action in assumpsit based on a claim of
attorney malpractice in a criminal case, but that
limitation does not extend to an action for legal
malpractice in assumpsit where the underlying
action was, as here, a civil action. Thus, we
conclude that the trial court in the present case
erred in applying the Bailey limitation on
damages, and we reverse the trial court on that
issue. Id. at 838.

15
In Petitioner’s case, in order to prevail on any claim
for malpractice, his burden was to prove that, absent
the conduct of his attorney, he would have succeeded in
his claim against his union. Here, the Third Circuit
ruled that Petitioner could not meet his burden of proof
in his claim against the union, thus the decision to
dismiss the malpractice claims against Respondent was
rightfully upheld. Accordingly, this Court should deny
Petitioner’s writ.
B. Petitioner’s
Conflict
of
Malpractice Claim is Waived

Interest

As addressed in the Counterstatement of the case,
it was not until Petitioner secured counsel on the
appeal that a second theory of malpractice premised
upon the alleged conflict of interest emerged. However,
this argument was never raised in the litigation of the
case before the District Court and not raised in
opposition to Respondent’s motion for summary
judgment which sought the dismissal of all claims.
Because the conflict of interest claim was raised for the
first time on appeal, it was waived. The Third Circuit
has held that a “failure to raise an issue in the district
court constitutes a waiver of the argument.” Belitskus
v. Pizzingrilli, 343 F.3d 632, 645 (3d Cir. 2003). Thus,
in order to preserve any argument for appeal, a party
“must unequivocally put its position before the trial
court at a point and in a manner that permits the court
to consider its merits.” Shell Petroleum, Inc. v. United
States, 182 F.3d 212, 218 (3d Cir. 1999); see also
DIRECTV, Inc. v. Seijas, 508 F.3d 123, 125 n.1 (3d Cir.
2007). Moreover, “[m]erely raising an issue that
encompasses the appellate argument is not enough.”

16
Spireas v. Comm’r of Internal Revenue, 886 F.3d 315,
321 (3d Cir. 2018) (quoting United States v. Joseph, 730
F.3d 336, 337 (3d Cir. 2013)). Rather, the argument
must have been made with “exacting specificity” in the
district court. Id.; see also Gen. Refractories Co. v. First
State Ins. Co., 855 F.3d 152, 162 (3d Cir. 2017)
(applying Joseph to a civil case).
As Respondent argued on appeal, Petitioner failed
to take any discovery and presented no cognizable legal
argument that his legal malpractice claim was
premised on a second theory that there was a conflict
of interest because Respondent knew she missed the
statute of limitations on his claim against the union,
but she covered it up and continued her representation.
Furthermore, he failed to present any argument in
response to Respondent’s summary judgment motion,
which clearly asked the Court to dismiss all claims
against Respondent. On appeal, the Third Circuit
recognized that waiver may be an issue, setting forth in
footnote 4 of the opinion: “[t]o preserve an issue for
appeal, a party ‘must unequivocally put its position
before the trial court at a point and in a manner that
permits the court to consider its merits.’” Shell
Petroleum, Inc. v. United States, 182 F.3d 212, 218 (3d
Cir. 1999). Although we are skeptical Doyle ever raised
this claim before the District Court, we will address the
argument because it is ultimately unpersuasive on the
merits.” App. 4. Therefore, there is no basis to grant
certiorari on the conflict of interest claim because it
was waived.

17
C. Petitioner’s Constitutional Rights Were Not
Violated By The Third Circuit’s Ruling
The manner in which the Third Circuit ruled upon
the issues raised by Petitioner on appeal did not violate
Petitioner’s Constitutional rights. Petitioner now
claims that he has been denied due process and access
to the courts because he is dissatisfied with how the
Third Circuit addressed his claims on appeal. Despite
his claims of Constitutional violations and lack of due
process, Petitioner fails to cite to a single authority
which supports his claim that his rights were denied.
Instead, he cites cases which do not support his central
argument that the Third Circuit’s failure to fully rule
upon the conflict of interest claim is tantamount to a
denial of due process. Petitioner argues: “It is basic
civil procedure that a lower court’s dismissal of a claim
while failing to give notice that the claim or issue
would be considered during summary judgment is
reversible error,” citing Couden v. Duffy, 446 F.3d 483,
500 (3d Cir. 2006). In Couden, the Court addressed
and affirmed the District Court’s sua sponte granting
of summary judgment to a defendant who did not file
a dispositive motion. In so ruling the Third Circuit
stated:
It has long been established that, under the
right circumstances, district courts are entitled
to enter summary judgment sua sponte. Gibson
v. Mayor and Council of Wilmington, 355 F.3d
215, 222 (3d Cir. 2004). The court may not enter
judgment, however, without “placing the
adversarial party on notice that the court is
considering a sua sponte summary judgment

18
motion” and providing that party
“an
opportunity to present relevant evidence in
opposition to that motion.” Chambers Dev. Co. v.
Passaic County Utils. Auth., 62 F.3d 582, 584 n.5
(3d Cir. 1995); see also Otis Elevator Co. v.
George Washington Hotel Corp., 27 F.3d 903, 910
(3d Cir.1994). Notice is satisfied if “‘the targeted
party had reason to believe the court might
reach the issue and received a fair opportunity
to put its best foot forward.’” Gibson, 355 F.3d at
223-24 (quoting Leyva v. On the Beach, Inc., 171
F.3d 717, 720 (1st Cir. 1999) (internal citation
and quotation marks omitted)).
446 F.3d at 500.
Cowden is readily distinguishable. Here the District
Court did not act sua sponte. To the contrary, the Court
granted Respondent’s Motion for Summary Judgment
which requested that all of Petitioner’s claims be
dismissed: “[because] he has failed to produce any
evidence that Ms. Vigilante intentionally mislead him
with regard to the viability of his claims, and admitted
that he was mistaken about when his cause of action
arose, Plaintiff’s claims are time-barred and must be
dismissed.” Respondent’s Motion for Summary
Judgment, ECF Document 27, page 8. The identical
grounds for dismissal were asserted in Respondent’s
Brief in Support of her Motion. ECF Document 27-8,
page 25. The Proposed Order filed with the Motion
requested that “all counts of Plaintiff’s Complaint and
Plaintiff’s claims [be] dismissed with prejudice.” ECF
Document 27-1.

19
Petitioner’s Brief in Opposition to Respondent’s
motion for summary judgment, in apparent response to
Respondent’s argument that he had not produced
evidence of his being intentionally misled, argued: “My
lawyer . . . continued to take my money, took
depositions from my witnesses, continued to file
motions with the court and told Plaintiff that the case
was not dismissed and I still had a solid claim . . .”
referencing a December 19, 2015 e-mail from
Respondent. (ECF Document 28, page 8). Therefore,
Petitioner’s Constitutional arguments based on an
alleged lack of notice of the nature of the Motion must
fail and the Petition should be denied.
The decisions of this Court cited by Petitioner (at
page 13 of the Petition in particular) are equally
unavailing. Respondent does not dispute that parties
have a Constitutional right to access to the courts,
which includes a right to be heard on relevant issues.
Given the facts of the cited decisions, however, none of
them support granting of the present Petition. For
example, Franklin v. Gwinett County, 503 U.S. 60
(1992) invoked the right of access to the courts in
support of its holding that Title IX plaintiffs could
recover money damages. North Carolina v. Pearce, 395
U.S. 711 (1969) and Blackledge v. Perry, 417 U.S. 21
(1974) both held that the right to appeal a criminal
conviction could not be restricted by fear that an
unsuccessful appeal might have an adverse impact in
future sentencing.
Harrington v. Richter, 562 U.S. 86 (2011) is the only
cited decision that is even remotely on point based on
its statement about the Court of Appeals “all but

20
ignor[ing] ‘the only question that matters
under § 2254(d)(1).’” Harrington, however, does not
support granting the Petition. First, its holding
involved the Circuit Court’s not addressing a specific,
clearly applicable statute. Second, the Circuit Court’s
failure to do so related to an important, widely
applicable issue regarding the scope of federal court
review of habeas corpus petitions by persons convicted
of violating state laws. Here, the issue presented is of
interest only to Petitioner, and was both noted by and
addressed by the Third Circuit (albeit not to
Petitioner’s satisfaction). And, as noted above, one
could fairly conclude that Petitioner did have notice
that Respondent sought summary judgment as to all
Petitioner’s claims.
CONCLUSION
For the reasons stated above, the Court should deny
the Petition for Writ of Certiorari because it does not
invoke any of reasons identified by Rule or otherwise
identify any compelling reason why the Court should
exercise it discretion to review a non-precedential
decision based entirely on state law whose outcome is
of interest solely to Petitioner and Respondent.

21
Respectfully submitted,
PATRICIA A. FECILE-MORELAND
Counsel of Record
MARKS O’NEILL O’BRIEN
DOHERTY AND KELLY
1617 John F. Kennedy Blvd.
One Penn Center, Suite 1010
Philadelphia, PA 19103
(215) 564-6688
pmoreland@moodklaw.com
Counsel for Respondent

